U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 28, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Leroy Baca v. United States, No. 19-102
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 18,
2019. The government's response is now due, after one extension, on November 4, 2019. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including December 4, 2019, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0102
BACA, LEROY
USA

BENJAMIN L. COLEMAN
COLEMAN & BALOGH LLP
1350 COLUMBIA STREET
STE. 600
SAN DIEGO, CA 92101
619-794-0420
BLC@COLEMANBALOGH.COM

